          Office of Audits
          Office of Inspector General
          U.S. General Services Administration




        Audit of GSA’s
        FY 2013 Improper
        Payments Performance
        Report Number A140021/B/9/F14002
        April 15, 2014




A140021/B/9/F14002
                    Office of Audits
                    Office of Inspector General
                    U.S. General Services Administration


                                   REPORT ABSTRACT
OBJECTIVE                   Audit of GSA’s FY 2013 Improper Payments Performance
 To determine whether       Report Number A140021/B/9/F14002
 the General Services
                            April 15, 2014
 Administration (GSA)
 complied with the          WHAT WE FOUND
 Improper Payments          GSA has complied with IPIA, as amended by IPERA, for FY 2013;
 Information Act of 2002    however, we identified the following during our audit:
 (IPIA), as amended by      Finding 1 – GSA did not accurately report its FY 2013 improper
 the Improper Payments      payments information.
 Elimination and            Finding 2 – GSA improperly paid its payment recapture audit
 Recovery Act of 2010       contractor.
 (IPERA), for fiscal year   Finding 3 – Regional reviews for claims validations were not timely.
 (FY) 2013.                 WHAT WE RECOMMEND
                            Based on our audit findings, we recommend the Chief Financial
                            Officer:
                            1. Adhere to established accounting processes and strengthen
                               current review procedures to ensure accurate reporting of
                               improper payments information in the Agency Financial Report;
                            2. Establish a formal review process for the Office of Management
                               and Budget (OMB) MAX Information System (MAX) submission
                               of improper payments information;
                            3. Correct the FY 2013 improper payments information reported in
                               OMB MAX;
                            4. Seek reimbursement from the payment recapture audit
                               contractor for the FY 2013 improper payment of $14,768;
                            5. Review prior fiscal year invoices from the payment recapture
                               audit contractor to verify billing accuracy and recover any
                               identified overpayments;
                            6. Establish internal controls to ensure billings from the payment
                               recapture audit contractor are accurately invoiced and paid; and
                            7. Develop and disseminate formal procedures regarding claim
Pacific Rim Region             validation reviews and timelines to all regional offices.
Audit Office (JA-9)         MANAGEMENT COMMENTS
450 Golden Gate Avenue
Room 7-5262                 The Chief Financial Officer of GSA agreed with our findings and
San Francisco, CA 94102     recommendations. Management comments are included in their
(415) 522-2744              entirety as Appendix D.


     A140021/B/9/F14002                     i
                      Office of Audits
                      Office of Inspector General
                      U.S. General Services Administration

     DATE:            April 15, 2014
     TO:              Michael Casella
                      Chief Financial Officer (B)


     FROM:            Perla Corpus
                      Audit Manager
                      Pacific Rim Region Audit Office (JA-9)
     SUBJECT:         Audit of GSA’s FY 2013 Improper Payments Performance
                      Report Number A140021/B/9/F14002

    This report presents the results of our audit of GSA’s FY 2013 Improper Payments
    Performance. Our findings and recommendations are summarized in the Report
    Abstract. Instructions regarding the audit resolution process can be found in the email
    that transmitted this report.

    Your written comments to the draft report are included in Appendix D of this report.

    If you have any questions regarding this report, please contact me or any member of
    the audit team at the following:


Perla Corpus          Audit Manager           Perla.Corpus@gsaig.gov             (415) 522-2733
Rhiannon Mastrocola   Auditor-in-Charge       Rhiannon.Mastrocola@gsaig.gov      (202) 273-7331
Ryan Lim              Auditor                 Ryan.Lim@gsaig.gov                 (415) 522-2743
Scott Dixon           Auditor                 Scott.Dixon@gsaig.gov              (312) 692-2201

    On behalf of the audit team, I would like to thank you and your staff for your assistance
    during this audit.




       A140021/B/9/F14002                       ii
Table of Contents
Introduction ............................................................................................................. 1

Results
Finding 1 – GSA did not accurately report its FY 2013 improper payments
            information .............................................................................................. 2
                 Recommendations 1, 2, and 3 ................................................................ 4
                 Management Comments ........................................................................ 4
Finding 2 – GSA improperly paid its payment recapture audit contractor.................. 4
                 Recommendations 4, 5, and 6 ................................................................ 5
                 Management Comments ........................................................................ 5
Finding 3 – Regional reviews for claims validations were not timely. ........................ 5
                 Recommendation 7 ................................................................................ 5
                 Management Comments ........................................................................ 6
Other Observations. .................................................................................................. 6


Conclusion ............................................................................................................... 7

Appendixes
Appendix A – Purpose, Scope, and Methodology ............................................. A-1
Appendix B – GSA Published FY 2013 AFR (Tables 1-6) .................................. B-1
Appendix C – AFR Tables: Summary of Financial Inaccuracies ...................... C-1
Appendix D – Management Comments .............................................................. D-1
Appendix E – Report Distribution ....................................................................... E-1




    A140021/B/9/F14002                                         iii
Introduction
The objective of this audit was to determine if GSA complied with the Improper
Payments Information Act of 2002 (IPIA), as amended by the Improper Payments
Elimination and Recovery Act of 2010 (IPERA), for fiscal year (FY) 2013.

The IPIA was enacted to enhance the accuracy and integrity of federal payments by
providing a framework that allows federal agencies to identify specific causes of
improper payments and implement necessary solutions to reduce them. Under
Executive Order 13520, federal agencies are required to decrease improper payments
by intensifying efforts to: eliminate payment error, waste, fraud, and abuse in the major
programs they administer; ensure transparency and public scrutiny of significant
payment errors; focus on identifying and eliminating improper payments; provide for
accountability; and coordinate with other Federal, state and local agencies to identify
and eliminate improper payments.

The Office of Management and Budget (OMB) issued Memorandum 11-16 (OMB M-11-
16) to provide guidance to all federal agencies regarding the implementation of the
IPERA. OMB M-11-16 requires agencies to review all programs and activities they
administer, identify those that may be susceptible to significant erroneous payments,
and implement mandatory actions to reduce erroneous payments. This guidance also
requires Inspectors General to perform annual reviews of their particular agency’s
reporting of any improper payments beginning in FY 2011. This review is to be
completed no later than 120 days after an Agency Financial Report (AFR) or
Performance and Accountability Report (PAR) is published.1

To be in compliance with IPERA, an agency must:
      Publish an AFR or PAR;
      Conduct a program specific risk assessment;
      Issue improper payment estimates;
      Publish programmatic corrective action plans in the AFR or PAR;
      Publish and meet annual reduction targets for each program;
      Report a gross improper payment rate of less than 10 percent for each
         program and activity included in its improper payments report; and
      Report information on its efforts to recapture improper payments.


See Appendix A – Purpose, Scope, and Methodology for additional details.




1
 GSA conveyed the results of its IPERA review in the GSA 2013 Agency Financial Report published on
December 16, 2013.


A140021/B/9/F14002                          1
Results
While GSA has complied with IPERA for FY 2013, we identified three areas for
improvement. Specifically, GSA should: (1) accurately report improper payments
information, (2) correctly pay the payment recapture audit contractor and recover any
identified overpayments, and (3) develop formalized regional procedures for claims
validation.

Finding 1 – GSA did not accurately report its FY 2013 improper payments
information.

The Office of the Chief Financial Officer (OCFO) did not accurately report its improper
payments data in the FY 2013 AFR and in the OMB MAX Information System (MAX). 2
As a result, GSA’s financial position regarding improper payments was misstated. See
Appendix B for an excerpt of GSA’s published FY 2013 AFR.

Although the OCFO submitted its FY 2013 AFR in a timely manner as required, the
reported data in each of the six AFR tables contained errors. 3 A summary of financial
inaccuracies for the six AFR tables is noted in Figure 1 on page 3. Additional details
regarding the misstatements are included in Appendix C. In this appendix, we
specifically identified the affected line items for each table in the AFR and the reason(s)
for the difference(s).

The OCFO also submitted its AFR information into OMB MAX as required by OMB M-
11-16. Improper payment information from the agency AFR is subsequently included in
OMB's governmentwide report on improper payments. The noted differences in Figure
1 were transferred into OMB MAX. The OCFO also incorrectly reported projected
improper payments percentages for the Purchase Card and Other Sensitive Payments
programs into OMB MAX.

The OCFO did not exercise due care to ensure the amounts published in both the AFR
and OMB MAX were accurate, complete, and supported. Specifically, year-end manual
processing of the data caused errors in the AFR and the OMB MAX submission.
Furthermore, the review processes for reporting improper payments information in the
AFR and OMB MAX were not conducted thoroughly.




2
  OMB uses the MAX Information System to collect, validate, analyze, and publish information relating to
its governmentwide management and budgeting activities.
3
  The regulations requiring reporting improper payments information include IPERA; OMB Circular A-123,
Appendix C, Requirements for Effective Measurement and Remediation of Improper Payments; and OMB
Circular A-136, Financial Reporting Requirements.


A140021/B/9/F14002                             2
                 Figure 1 – Summary of Financial Inaccuracies (Tables 1 – 6)

Table 1 – Improper Payment Reduction Outlook

                                        Reported          Audited          Difference
                                                                                                   4
    Program                                (a)               (b)             (a)- (b)       NOTE
    Rental of Space                      $59,550,000      $59,544,991              $5,009    1-1
    Building Operations - Utilities         $250,000        $238,635             $11,365     1-2
    Purchase Cards                                $0           $3,723            <$3,723>    1-3
    Other Sensitive Payments                 $10,000             $713              $9,287    1-3

Table 2 – Payment Recapture Audit Reporting
     Program                           Reported           Audited         Difference        NOTE
     Rental of Space                  $3,206,976,558   $3,206,346,558          $630,000      2-1
     Rental of Space                      $4,474,860       $4,446,028           $28,832      2-2
     Rental of Space                      $4,437,802       $4,466,634          <$28,832>     2-3
     Rental of Space                     $86,252,849      $86,224,017           $28,832      2-4
     Rental of Space                     $30,856,517      $30,885,349          <$28,832>     2-4
     Supply                               $1,777,294   $1,777,530,422   <$1,775,753,128>     2-5

Table 3 – Payment Recapture Audit Targets

     Program                           Reported           Audited         Difference        NOTE
     Rental of Space                     $4,474,860        $4,446,028           $28,832      3-1

Table 4 – Aging of Outstanding Overpayments

     Program                           Reported           Audited         Difference        NOTE
     Rental of Space                     $4,024,700        $4,053,532          <$28,832>     4-1

Table 5 – Disposition of Recaptured Funds

     Program                           Reported           Audited         Difference        NOTE
     Rental of Space                     $4,474,860        $4,446,028           $28,832      5-1

Table 6 – Overpayments Recaptured Outside of Payment Recapture Audits

     Program                           Reported          Audited          Difference        NOTE
     OCFO Identified                    $38,218,665      $40,877,462        <$2,658,797>     6-1
     OCFO Identified                    $69,825,930      $72,484,727        <$2,658,797>     6-2
     OCFO Identified                    $68,501,521      $71,835,436        <$3,333,915>     6-3




4
    See Appendix C for Notes to Summary of Financial Inaccuracies.


A140021/B/9/F14002                              3
Corrective Action Taken

As of April 3, 2014, the OCFO has updated its improper payments information in OMB
MAX to accurately reflect GSA's improper payments position. Notwithstanding this
action, OCFO personnel should continually assess the accuracy and completeness of
improper payments reporting in the AFR and in OMB MAX.

Recommendations 1, 2, and 3

To ensure accurate reporting of improper payments information, we recommend the
Chief Financial Officer:

1. Adhere to established accounting processes and strengthen current review
   procedures to ensure accurate reporting of improper payments information in the
   AFR;
2. Establish a formal review process for the OMB MAX submission of improper
   payments information; and
3. Correct the FY 2013 improper payments information reported in OMB MAX.

Management Comments

The Chief Financial Officer of GSA agreed with the audit finding and concurred with the
recommendations.      Management comments are included in their entirety as
Appendix D.

Finding 2 – GSA improperly paid its payment recapture audit contractor.

In FY 2013, the OCFO allowed the payment recapture audit contractor (contractor) to
charge a recovery fee of 18.135 percent, which exceeds the negotiated contract rate.5
Therefore, the contractor was overpaid by $14,768.

The contract between GSA and the contractor provides for a recovery fee of 18 percent.
According to the Industrial Funding Fee (IFF) clause in the contract, the IFF should be
included in the award price.6

OCFO personnel explained that the 18.135 percent was calculated by multiplying the
IFF rate of 0.75 percent by the recovery fee of 18 percent. No contract modifications
were approved to change the negotiated contract rate. Therefore, the OCFO was
unaware that the IFF was already included in the negotiated contract rate of 18 percent.
The OCFO confirmed the improper payment of $14,768 and that internal controls are
not in place to ensure the billings are accurate and verified to the correct contract rate.
5
  PRGX Global, Inc. is the payment recapture audit contractor who was awarded a payment recapture
audit contingency contract (GS-23F-8140H) on April 26, 2011, for one year with five 1-year options. This
type of contract provides for audit services in which payment is based on a percentage of overpayments
collected. The contractor must provide clear evidence of overpayments to the appropriate agency official.
6
  All GSA schedule vendors are required to incorporate the IFF rate of 0.75 percent into their prices. This
fee covers GSA’s costs of operating the schedules program.


A140021/B/9/F14002                              4
Recommendations 4, 5, and 6

We recommend the Chief Financial Officer:

4. Seek reimbursement from the payment recapture audit contractor for the FY 2013
   improper payment of $14,768;
5. Review prior fiscal year invoices from the payment recapture audit contractor to
   verify billing accuracy and recover any identified overpayments; and
6. Establish internal controls to ensure billings from the payment recapture audit
   contractor are accurately invoiced and paid.

Management Comments

The Chief Financial Officer of GSA agreed with the audit finding and concurred with the
recommendations.      Management comments are included in their entirety as
Appendix D.

Finding 3 – Regional reviews for claims validations were not timely.

The OCFO did not provide formalized procedures to the regional offices requiring timely
review for the claims validation process. Without a formal process, the regional offices
may not be held accountable for accurate and timely identification and reporting of
improper payments.7

The payment recapture audit contingency contract requires the contractor to notify GSA
of any suspected overpayments. GSA then has 60 days to review, verify, and validate
those identified overpayments. During our testing, we found that certain regional offices
did not complete the claims review process within 60 days. We reviewed a total of 76
claims, of which 57 were validated and 19 were pending.8 Of the validated claims, we
found that 26 were not reviewed within 60 days. The review time ranged from 69 to 259
days to validate the claims. As of February 10, 2014, 6 of the 19 pending claims had
been validated (taking 242 days), and 13 remained in pending status (ranging from 269
to 634 days).

The OCFO relied on an informal process to notify regional offices of the claims
validation timelines.

Recommendation 7

We recommend the Chief Financial Officer:

7. Develop and disseminate formal procedures regarding claim validation reviews and
   timelines to all regional offices.

7
  For the claim validation review, all claims were related to the Public Buildings Service and no claims
were associated with the Federal Acquisition Service.
8
  For validated claims, a final decision has been made (i.e., approved or denied).


A140021/B/9/F14002                             5
Management Comments

The Chief Financial Officer of GSA agreed with the audit finding and concurred with the
recommendation.      Management comments are included in their entirety as
Appendix D.

Other Observations

During the course of our audit, we noted additional issues warranting management’s
attention. Although there are no formal recommendations for these issues, the OCFO
should be aware of our concerns regarding the completeness of claim forms and the
accuracy of prompt payment interest calculations.

One section of the claim form was not completed because boxes indicating whether a
claim is “within scope” or “outside the scope of the Recovery Audit” were left
unchecked. In our Audit of GSA’s FY 2012 Improper Payments Performance, we
recommended the OCFO modify the contract to include OMB requirements.9 The
modification was exercised and the contract language was amended to include the
requirement that “the contractor must notify the agency of any overpayments
identified...that are beyond the scope of the contract." By not fully completing the claim
form, the payment recapture audit contractor may not be informing GSA of out of scope
payments per the contract and OMB requirements. To adhere to these requirements,
the OCFO must ensure the form is entirely completed.

In our review of GSA’s test plans, which sampled FY 2013 transactions for AFR
reporting, we noted minor issues regarding prompt payment interest calculations.
Although these errors were minimal, incorrect calculation of interest payments could
lead to potential errors in AFR reporting.




9
    Report Number A130014/B/F/F13002 issued on March 14, 2013.


A140021/B/9/F14002                           6
Conclusion
GSA has complied with the Improper Payments Information Act of 2002, as amended
by the Improper Payments Elimination and Recovery Act of 2010 (IPERA), for FY 2013.
However, based on our findings, GSA needs to improve and strengthen aspects of its
implementation of the requirements under IPERA.

The OCFO is not performing effective oversight on reporting its improper payments
information. Additionally, the OCFO does not have adequate internal controls to ensure
billings from, and payments to, its recapture audit contractor are accurate. Furthermore,
the OCFO does not have a formalized procedure for the regional offices’ claims
validation reviews.

As a result of these issues, GSA’s financial position regarding improper payments was
misstated and the payment recapture audit contractor was improperly paid. Without
standardized procedures for regional offices’ claims validations, GSA is at risk for
further inaccurate financial reporting and untimely identification of improper payments.




A140021/B/9/F14002                      7
Appendix A – Purpose, Scope, and Methodology
Purpose

This audit was included in the GSA Office of Inspector General’s FY 2014 Audit Plan, in
compliance with the requirements of IPERA.

Scope

The audit reviewed GSA’s improper payments performance for FY 2013. Taking a risk
based approach,10 and considering our audit objective, we tested a total of 76 payment
recapture audit contractor claims and 80 GSA transactions. We used data analysis
software to generate a random sample for the claims and transactions selected for
testing.

Methodology

To accomplish our objective, we:

        Reviewed relevant criteria, including Public Laws, Executive Orders, OMB
         Memoranda, and GSA directives, internal procedures, and policies;
        Reviewed prior audit reports related to improper payments issued by the
         Government Accountability Office, GSA OIG, and other federal agencies;
        Examined supporting documentation for GSA’s Agency Financial Report, risk
         assessment, organizational structure, and corrective actions from prior year GSA
         OIG audit recommendations;
        Evaluated documentation from GSA’s payment recapture audit contractor,
         including its Statement of Work, claims listing, and improper payments reports;
        Examined a judgmental sample of claim forms for accuracy, completeness, and
         timeliness;
        Verified receiving reports to the payment recapture audit contractor’s FY 2013
         invoices, which totaled $2,116,889, and calculated any overpayments;
        Obtained all regions’ procedures for claims processing;
        Reviewed a judgmental sample of GSA transactions for accuracy and
         completeness;
        Conducted meetings and communicated with GSA OCFO personnel; and




10
   As defined by the Government Accountability Office, the assessment of audit risk involves both
qualitative and quantitative considerations. Factors impacting audit risk include time frames, complexity,
or sensitivity of the work; size of the program in terms of dollar amounts and number of citizens served;
systems and processes to detect inconsistencies, significant errors, or fraud; and auditors’ access to
records.


A140021/B/9/F14002                            A-1
Appendix A – Purpose, Scope, and Methodology (cont.)
        Obtained access to GSA systems including OMB MAX, Pegasys, 11 Real Estate
         across the United States,12 and the Financial Management Information System.13

We conducted the audit between November 2013 and March 2014 in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objective.

Internal Controls

We limited our assessment of internal controls to those related to the OCFO’s improper
payment recapture audit program. We reviewed the OCFO’s procedures and
processes to assess compliance with IPERA; the improper payments contract for
recapture audit services; and financial documentation to assess the effectiveness of the
controls. Based on our audit, we made recommendations to strengthen and improve
the controls discussed in the Results section of this report.




11
    Pegasys, GSA's core financial system, supports funds management (budget execution and
purchasing), credit cards, accounts payable, disbursements, standard general ledger, and reporting.
12
   Real Estate across the United States is an inventory system for GSA to manage federally owned and
leased properties and conduct all inventory management related work.
13
   The Financial Management Information System provides daily, monthly, and yearly financial data for
reconciliation, financial analysis, and management reporting.


A140021/B/9/F14002                          A-2
Appendix B – GSA Published FY 2013 AFR (Tables 1-6)
This appendix provides reference to GSA’s reported FY 2013 AFR improper payments information. The six tables are an excerpt from GSA’s published FY 2013 AFR.

 Table 1 Improper Payment Reduction Outlook (in millions)
                                                                                                                                    CY
                                                                                                                 CY Over           Under          CY+1                              CY+2                                CY+3
  Program or                              PY          PY       PY          CY               CY                   Payment          Payment          Est.        CY+1     CY+1         Est.         CY+2         CY+2      Est.         CY+3         CY+3
  Activity                               Outlays     IP%       IP$        Outlays          IP%        CY IP$        $                $           Outlays        IP%      IP$       Outlays         IP%          IP$    Outlays         IP%          IP$
  Rental of Space                          N/A       N/A      N/A         $5,556          1.07%       $59.55          $29          $30.6          $5,593       1.02%     $57       $5,593          1%          $56     $5,593          1%          $56
  Building Operations -
  Utilities                                N/A       N/A      N/A           $400          0.06%       $0.25           $-           $0.249          $383         0%        $-           $383        0%           0        $383          0%           $-
  Integrated Technology
  Service - Wide Area
  Network                                  N/A       N/A      N/A           $753           0%          $-             $-            $-             $743         0%        $-           $743        0%           $-       $743          0%           $-
  Purchase Cards                           N/A       N/A      N/A          $54.9          7.79%       $4.28           $4.28        $0.00            $34        7.3%      $2.3          $34         6.8%        $2.3          $34      6.2%         $2.1
  Other Sensitive Payments                 N/A       N/A      N/A          $17.7          1.67%       $0.30           $0.29        $0.01            $18        1.5%      $2.7          $18        1.3%       $0.23           $18      1.1%         $0.20

 Table 2 Payment Recapture Audit Reporting
                                                                                                                                                    % of
                                                                                                                                                    Amount
                                                                                                                                                    Deter-
                                                                                           % of                        % of                         mined                                                                                           Cumu-
             Type of                                                                       Amount                      Amount                       Not to                                                                                          lative
             Payment                                                                       Recov-                      Out-                         be Col-                                                                                         Amounts
             (con-                                                                         ered                        standing                     lectable                                    Cumulative                                          Deter-
  Pro-       tract,                                        Amount                          out of                      out of       Amount          out of                                      Amounts                                             mined
  gram       grant,     Amount            Actual           Identified                      Amount                      Amount       Determined      Amount      Amounts                         Identified      Cumulative        Cumulative        Not to
  or         benefit,   Subject to        Amount           for             Amount          Identi-      Amount         Identi-      Not to be       Identi-     Identified     Amounts          for             Amounts           Amounts           be Col-
  Activ-     loan, or   Review for        Reviewed and     Recov-          Recovered       fied         Outstand       fied         Collectable     fied        for Recovery   Recovered        Recovery        Recovered         Outstanding       lectable
  ity        other)     CY Reporting      Reported (CY)    ery (CY)        (CY)            (CY)         - ing (CY)     (CY)         (CY)            (CY)        (PYs)          (PYs)            (CY + PYs)      (CY + PYs)        (CY+PYs)          (CY+PYs)

  Rental
  of
  Space      Contract   $3,206,976,558    $3,206,976,558   $9,085,958      $4,474,860         49%       $4,437,802          49%      $173,296             2%    $108,862,792 $81,777,989        $117,948,750     $86,252,849       $30,856,517      $839,384

  Re-
  gional
  Tele-
  com-
  muni-
  cations    Contract        $630,000          $630,000              $0              $-          0%              $-         0%                $-          0%              $-               $-             $-                 $-               $-           $-

  Supply     Contract      $1,777,294         $1,777,294             $0              $-          0%              $-         0%                $-          0%              $-               $-             $-                 $-               $-           $-


 Table 3 Payment Recapture Audit Targets

                                                                          CY                          CY                                    CY                                 CY +1                   CY + 2                        CY + 3

           Program or            Type of Payment
            Activity             (contract, grant,                       Amount                                               Recovery Rate (Amount
                                  benefit, loan, or                     Identified               Amount                        Recovered / Amount                          Recovery                   Recovery                    Recovery Rate
                                      other)                                                    Recovered                           Identified)                           Rate Target                Rate Target                     Target
     Rental of Space                     Contract                  $9,085,958                    $4,474,860                                49%                                  50%                       55%                          60%



A140021/B/9/F14002                                                                                                          B-1
Appendix B – GSA Published FY 2013 AFR (Tables 1-6) (cont.)
Table 4 Aging of Outstanding Overpayments

                             Type of Payment         CY Amount Out-             CY Amount Out-           CY Amount Out-
                             (contract, grant,            standing                   standing                 standing
                              benefit, loan, or
  Program or Activity             other)                 (0 – 6 months)       (6 months to 1 year)             (over 1 year)
      Rental of Space                Contract               $4,024,700                 $413,102                   --

Table 5 Disposition of Recaptured Funds

                 Type of            Agency
                 Payment          Expenses to      Payment            Financial
                (contract,        Administer      Recapture         Management                         Office of Returned
  Program grant, benefit,             the          Auditor          Improvement        Original       Inspector     to
 or Activity loan, or other)       Program           Fees             Activities       Purpose         General Treasury
  Rental of
   Space            Contract           $-              $-                $-            $ 4,474,860        $-            $-

Table 6 Overpayments Recaptured Outside of Payment Recapture Audits

                                    Amount
   Source of      Amount           Recovered         Amount              Amount        Cumulative Amount Cumulative Amount
   Recovery    Identified (CY)       (CY)         Identified (PY)     Recovered (PY)   Identified (CY+PYs) Recovered (CY+PYs)
    OCFO
  Identified    $31,607,265       $31,111,530      $38,218,665          $37,389,991        $69,825,930           $68,501,521




A140021/B/9/F14002                                      B-2
Appendix C – AFR Tables: Summary of Financial Inaccuracies
This appendix provides further detail for audited amounts in Figure 1 Summary of Financial
Inaccuracies (page 3). See Appendix B for the excerpt of the reported improper payments
data from GSA’s published FY 2013 AFR.

Notes:

1-1.   Rental of Space: The current year overpayment (CY Overpayment $ in the
       AFR), current year underpayments (CY Underpayment $) and overall improper
       payments (CY IP $) related to Rental of Space were inconsistently rounded. The
       CY IP $ was rounded upwards to two decimal places, while CY Overpayment $
       was rounded to the nearest dollar. The CY Underpayment $ was rounded up to
       one decimal place. These rounding inconsistencies caused a difference of
       $5,009.

1-2.   Building Operations–Utilities: The amounts reported for current year improper
       payments (CY IP $) and current year underpayments (CY Underpayment $)
       associated with Building Operations-Utilities were overstated by $11,365 due to
       rounding errors.

1-3.   Purchase Cards and Other Sensitive Payments: The amount of current year
       underpayments (CY Underpayment $) for Purchase Cards was reported as $0
       (in millions).    The audited amount and difference was $3,723. The CY
       Underpayment $ for Other Sensitive Payments was reported as $0.01 (in
       millions). The audited amount was $713, resulting in a difference of $9,287. Due
       to inconsistent rounding, one program category was rounded upward to reflect
       recapture activity, while the other category was not.

2-1.   Rental of Space: The Amount Subject to Review for CY Reporting and the
       Actual Amount Reviewed and Reported (CY) for Rental of Space is overstated
       by $630,000. The OCFO erroneously included the Regional Telecommunication
       information in the amounts for Rental of Space.

2-2.   Rental of Space: The Amount Recovered (CY) is overstated. Three claims,
       recovered in FY 2014, were incorrectly reported in FY 2013, totaling an
       overstated amount of $33,050. In addition, one claim was inaccurately reported,
       resulting in an understatement of $4,218.        These errors led to a net
       overstatement of $28,832.

2-3.   Rental of Space: The Amount Outstanding (CY) is calculated by subtracting
       Amount Recovered (CY) from Amount Identified for Recovery (CY).
       Because of the overstatement noted in 2-2 above, the Amount Outstanding
       (CY) was understated by $28,832.




A140021/B/9/F14002                     C-1
Appendix C – AFR Tables: Summary of Financial Inaccuracies (cont.)

2-4.   Rental of Space: Cumulative Amounts Outstanding (CY+PYs) were
       understated and Cumulative Amounts Recovered (CY+PYs) were overstated
       by the same $28,832 errors noted above. See Notes 2-2 and 2-3.

2-5.   Supply: Supporting documentation for the Supply program was inconsistent.
       The OCFO provided information supporting a Supply amount in Amount Subject
       to Review for CY Reporting and Actual Amount Reviewed and Reported
       (CY) as $1,777,294,494. The contractor provided documentation supporting
       those amounts as $1,777,530,422, leading to a difference of $235,928. When
       reporting the Supply information, the OCFO, using their supporting
       documentation, also mistakenly omitted the last 3 digits of those amounts,
       resulting in an understatement by a factor of 1,000. Therefore, the Supply
       Amount Subject to Review for CY Reporting and Actual Amount Reviewed
       and Reported (CY) were net understated by $1,775,753,128.

3-1.   Rental of Space: The Amount Identified (CY) was overstated by $28,832. See
       Note 2-2.

4-1.   Rental of Space: CY Amount Outstanding (0-6 months) was understated by
       $28,832, due to the error identified in Note 2-3. In addition, the CY Amount
       Outstanding (0-6 months) could not be reconciled to the Table 2 Amount
       Outstanding (CY). The OCFO was unable to adequately explain or support a
       $3,173 adjustment, which was made to the 0-6 month category.

5-1.   Rental of Space: Due to the overstatement of Amount Recovered (CY)
       identified in Note 2-2, the recaptured funds reported in Original Purpose were
       also overstated by $28,832.

6-1.   OCFO Identified: The Amount Identified (PY) was not fully corrected from the
       FY 2012 AFR reported amounts, resulting in an overstatement of $805,549. The
       Amount Identified (PY) also did not include FY 2012 identified overpayments of
       $3,464,346, resulting in a net understatement of $2,658,797.

6-2.   OCFO Identified: The Cumulative Amount Identified (CY+PYs) is net
       understated by $2,658,797. See Note 6-1 for details.

6-3.   OCFO Identified:      The Cumulative Amount Recovered (CY+PYs) is
       understated by $3,333,915 and does not include current year (FY 2013)
       recovered amounts of prior year (FY 2012) identified improper payments.




A140021/B/9/F14002                   C-2
Appendix D – Management Comments




A140021/B/9/F14002   D-1
Appendix D – Management Comments (cont.)




A140021/B/9/F14002   D-2
Appendix D – Management Comments (cont.)




A140021/B/9/F14002   D-3
Appendix E – Report Distribution
Chief Financial Officer (B)

Chief of Staff (B)

Acting Director, Office of Financial Policy and Operations (BC)

Acting Director, Internal Control Division (BCB)

Audit Liaison, Office of the Chief Financial Officer (B)

Program Manager, GAO/IG Audit Response Division (H1C)

Assistant Inspector General for Auditing (JA)

Deputy Assistant Inspector General for Investigations (JID)

Director, Audit Planning, Policy, and Operations (JAO)




A140021/B/9/F14002                       E-1
